No. 21-69
In the

Supreme Court of the United States
__________________

JOHN ALLISON HUCKABAY,
Petitioner,
v.
STATE OF IDAHO,
__________________

Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of the State of Idaho

__________________

BRIEF OF AMICI CURIAE THE BUCKEYE
INSTITUTE, COMPETITIVE ENTERPRISE
INSTITUTE, CLAUSE 40 FOUNDATION,
REASON FOUNDATION, FAITH & FREEDOM
COALITION, AND THE RUTHERFORD
INSTITUTE IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI
__________________
JAY R. CARSON
Counsel of Record
ROBERT ALT
THE BUCKEYE INSTITUTE
88 East Broad Street, Ste. 1300
Columbus, Ohio 43215
(614) 224-4422
j.carson@buckeyeinstitute.org
robert@buckeyeinstitute.org
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF THE AMICI CURIAE . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The Petition for Certiorari Presents a
Question of Great Importance . . . . . . . . . . . . 6

II.

Idaho’s Regulatory Scheme for Big Game
Hunting—and similar regulatory regimes—
threatens to ensnare innocent actors . . . . . . 11

III.

The
Ever-Growing
Problem
of
Overcriminalization . . . . . . . . . . . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii
TABLE OF AUTHORITIES
CASES
Elonis v. United States,
575 U.S. __ (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Lambert v. People of the State of California,
355 U.S. 225, 78 S.Ct. 240,
2 L.Ed.2d 228 (1957) . . . . . . . . . . . . . . . . . . . . 8, 10
Liparota v. United States,
471 U.S. 419 (1985). . . . . . . . . . . . . . . . . . . . . . 4, 9
Morissette v. United States,
342 U.S. 246 (1952). . . . . . . . . . . . . . . . . . . passim
Rehaif v. United States,
139 S.Ct. 2191, 204 L.Ed.2d 594 (2019). . . . . . 4, 6
Staples v. United States,
511 U.S. 600 (1994). . . . . . . . . . . . . . . . . . . . 4, 7, 9
U.S. v. Engler,
806 F.2d 425 (3rd Cir. 1986) . . . . . . . . . . . . . . . 10
U.S. v. Wulff,
758 F.2d 1121 (6th Cir. 1985). . . . . . . . . . . . . . . 10
United States v. Freed,
401 U.S. 601 (1971). . . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Harris,
347 U.S. 612 (1954). . . . . . . . . . . . . . . . . . . . . . . . 4
STATUTES
16 U.S.C. § 742j-1(a)(1) . . . . . . . . . . . . . . . . . . . . . . 18

iii
18 U.S.C. § 336 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
18 U.S.C. § 916 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
21 CFR § 135.40(e)(4). . . . . . . . . . . . . . . . . . . . . . . . 18
21 U.S.C. § 333 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
40 CFR. § 3.27 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
40 U.S.C. § 1315 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Ann. Cal. Health & Safety Code §110460 . . . . . . . . 20
Ann. Cal. Health & Safety Code §113758 . . . . . . . . 19
Ann. Cal. Health & Safety Code §114395 . . . . . . . . 19
I.R.C. section 501(c)(3) . . . . . . . . . . . . . . . . . . . . . . . . 1
I.R.C. section 501(c)(4) . . . . . . . . . . . . . . . . . . . . . . . . 2
Okla. Stat. tit. 37, § 584. . . . . . . . . . . . . . . . . . . . . . 20
RULES
U.S. Sup. Ct. R. 37 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
A Crime a Day (@CrimeADay), https://twitter.com/
Cri m eAD ay ?ref_src= t w src%5 Eg oog le%7
Ctwcamp%5Eserp%7Ctwgr%5Eauthor . . . . . . . 18
John Baker, Revisiting the Explosive Growth of
Federal Crimes, The Heritage Foundation, Jun.
16, 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 17

iv
John C. Coffee, Jr., Does “Unlawful” Mean
“Criminal”?: Reflections on the Disappearing
Tort/Crime Distinction in American Law, 71
B.U. L. Rev. 193 (1991). . . . . . . . . . . . . . . . . 17, 22
John C. Coffee, Jr., Paradigms Lost: The Blurring of
the Criminal & Civ. Law Models-& What Can Be
Done About It, 101 YALE L.J. 1875 (1992) . . . . . 16
James R. Copeland, The Orange County Register,
Sept. 27, 2016, https://www.ocregister.com/2016/
11/27/homemade-ceviche-case-exemplifies-needto-address-overcriminalization/ . . . . . . . . . . . . . 19
L. Gordon Crovitz, You Commit Three Felonies a
Day, THE WALL STREET JOURNAL (Sept. 27, 2009)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Idaho Dept. Fish and Game, 13.01.08 Rules
Governing Taking of Big Game Animals,
adminrules.idaho.gov/rules/current/13/130108.
pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Idaho Dept. Fish and Game, Big Game 2021
Seasons & Rules (1st Ed. 2021) . . . . . . . . . . 12, 13
O. Holmes, The Common Law 3 (1881). . . . . . . . . . . 3
https://arstechnica.com/tech-policy/2017/01/womanprosecuted-for-ceviche-sales-on-facebook-settleswith-da/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
Idaho Seasons and Rules, available at
“https://idfg.idaho.gov/sites/default/files/
seasons-rules-moose-bighorn-sheep-mtn-goat-2021
-2022.pdf?updated=04-02-2021 . . . . . . . . . . . . . 11

v
Idaho Seasons and Rules, idfg.idaho.gov/rules. . . . 12
Kadish, The Crisis of Overcriminalization, 374
ANNALS AM. ACAD. POL. & SOC. SCI. 1 (1967) . . . . 15
Sanford Kadish, Some Observations on the Use of
Criminal Sanctions in Enforcing Economic
Regulations, 30 U. CHI. L. REV. 3 (1963) . . . . . . 15
Paul J. Larkin, Regulation, Prohibition, and
Overcriminalization: The Proper and Improper
Uses of the Criminal Law, 42 HOF. L. REV. 745
(2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Paul J. Larkin, Jr., Public Choice Theory and
Overcriminalization, 36 HARV. J. L. & PUB. POL’Y
715 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 21
Erik Luna, The Overcriminalization Phenomenon,
54 AM. U. L. REV. 703 (2005) . . . . . . . . . . . . . . . 18
Many Failed Efforts to Count Nation’s Federal
Criminal Laws, Gary Fields & John R.
Emshwiller, THE WALL STREET JOURNAL (July
23, 2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 21
Herbert L. Packer, The Limits of the Criminal
Sanction, 65 (1968) . . . . . . . . . . . . . . . . . . . . . . . 16
David E. Petzal, The 7 Hardest Animals to Hunt,
F IELD AND S TREAM , Apr. 30, 2021,
https://www.fieldandstream.com/story/hunting/biggame-animals-you-need-to-drop-quickly/ . . . . . . . 13

vi
Susan L. Pilcher, Ignorance, Discretion & the
Fairness of Notice: Confronting “Apparent
Innocence” in the Criminal Law, 33 AM. CRIM. L.
REV. 1 (1995) . . . . . . . . . . . . . . . . . . . . . . 10, 14, 16
RABBIT FIRE, (Warner Bros.1951) . . . . . . . . . . . . . . 13
Bill Schammert, Bacon Booze: Local bar, bartender
in trouble for infusing vodka, Fox 25 (June 24,
2016); https://okcfox.com/news/local/bacon-boozelocal-bar-bartender-in-trouble-for-infusing-vodka
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
William Stuntz, The Pathological Politics of
Criminal Law, 100 MICH. L. REV.3 (2001) . . . . 21
The Courts Take Flight: Scienter and The Migratory
Bird Treaty Act, 36 WASH. & LEE L. REV. 241
(1979). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
The Ever-Growing Problem of Overcriminalization,
Section III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Brian W. Walsh & Tiffany M. Joslyn, Without
Intent: How Congress Is Eroding the Criminal
Intent Requirement in Federal Law, The
Heritage Foundation & The National
Association of Criminal Defense Lawyers (2010)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

1
INTERESTS OF THE AMICI CURIAE
Amicus curiae The Buckeye Institute was founded
in 1989 as an independent research and educational
institution—a think tank—whose mission is to advance
free-market public policy at the state and federal level.1
The staff at The Buckeye Institute accomplishes the
organization’s mission by performing timely and
reliable research on key issues, compiling and
synthesizing data, formulating free-market policy
solutions, and marketing those policy solutions for
implementation in Ohio and replication throughout the
country. The Buckeye Institute is a nonpartisan, nonprofit, tax-exempt organization as defined by I.R.C.
section 501(c)(3). The Buckeye Institute’s Legal Center
files and joins amicus briefs that are consistent with its
mission and goals.
The Buckeye Institute has taken the lead in Ohio,
and across the country in advocating for sensible
criminal laws and against the expanding
criminalization of regulatory noncompliance.
The Competitive Enterprise Institute (“CEI”) is a
non-profit public policy organization dedicated to
advancing the principles of limited government, free
enterprise, and individual liberty. CEI regularly

1

Pursuant to Rules 37.2(a) and 37.3(a), The Buckeye Institute
states that it has timely notified and obtained written consent to
file this amicus brief from all parties in the case. Further,
pursuant to Rule 37.6, no counsel for any party has authored this
brief in whole or in part and no person other than the amicus has
made any monetary contribution to this brief’s preparation or
submission.

2
participates in public interest litigation, as litigant or
amicus, where fundamental due process and other
basic constitutional rights are threatened.
Clause 40 Foundation is a nonpartisan, nonprofit
organization whose mission is to honor, preserve, and
promote the constitutionally guaranteed due process
rights in the criminal legal system. Clause 40
Foundation is participating as amicus curiae in this
matter because the proliferation of criminal statutes
without scienter requirements, like the regulatory
scheme at issue in this case, threatens Americans’ due
process rights.
Reason Foundation is a national, nonpartisan, and
nonprofit public policy think tank, founded in 1978.
Reason’s mission is to advance a free society
by applying and promoting libertarian principles and
policies—including free markets, individual liberty,
and the rule of law. Reason supports dynamic marketbased public policies that allow and encourage
individuals and voluntary institutions to flourish.
Reason advances its mission by publishing
Reason magazine, as well as commentary on its
websites, and by issuing policy research reports. To
further Reason’s commitment to “Free Minds and Free
Markets,” Reason participates as amicus curiae in
cases raising significant constitutional or legal issues.
Faith & Freedom Coalition was founded in 2009 as
a nonpartisan, non-profit, tax-exempt, social welfare
organization as defined by I.R.C. section 501(c)(4). Its
mission is to educate, equip, and mobilize people of
faith and like-minded individuals to be effective
citizens and to enact public policy that strengthens

3
families, protects individuals, promotes time-honored
values, protects the dignity of life and marriage, lowers
the tax burden on small business and families, and
requires government to live within its means. Today, it
has grown to over 2.5 million members nationwide.
Faith & Freedom Coalition is a leader at the state and
federal level in advocating for proven reforms to the
criminal justice system that make our communities
safer, our criminal system more just, and that promote
rehabilitation and restoration. Faith & Freedom is
concerned that the never-ending expansion of criminal
laws and the criminalization of regulatory
noncompliance undermines justice and places an
especially heavy burden on small, family-owned
businesses.
The Rutherford Institute is an international
nonprofit organi za t i on hea dq ua rtered in
Charlottesville, Virginia. Founded in 1982 by its
President, John W. Whitehead, the Institute specializes
in providing legal representation without charge to
individuals whose civil liberties are threatened or
infringed and in educating the public about
constitutional and human rights issues. The
Rutherford Institute works tirelessly to resist tyranny
and threats to freedom, ensuring that the government
abides by the rule of law and is held accountable when
it infringes on the rights guaranteed to persons by
Constitution and laws of the United States.
SUMMARY OF ARGUMENT
Justice Holmes observed that “even a dog
distinguishes between being stumbled over and being
kicked.” O. Holmes, The Common Law 3 (1881). This

4
Court has long noted that the distinction between an
intentional wrong and mere stumbling carries Due
Process implications, particularly where significant
criminal penalties are in play.
Beginning with Morissette v. United States in1952
and continuing through Rehaif v. United States in
2019, this Court and the circuit courts have sought to
balance the fundamental due process principle that “no
man should be held criminally responsible for conduct
which he could not reasonably understand to be
proscribed” with the government’s interest in
protecting society at large from the dangers of a
modern industrialized society through strict liability
regulation. See Morissette v. United States, 342 U.S.
246, 254 (1952); Rehaif v. United States, 139 S.Ct.
2191, 2196–97, 204 L.Ed.2d 594 (2019); United States
v. Harris, 347 U.S. 612, 617 (1954).
This Court and the circuit courts have performed
this balancing act in contexts ranging from consumer
health and safety statutes, environmental statutes,
food stamp fraud, felon registration laws, and drug and
firearms possession laws. See, e.g., Liparota v. United
States, 471 U.S. 419, 420 (1985); United States v. Freed,
401 U.S. 601, 608 (1971); Staples v. United States, 511
U.S. 600, 605 (1994). Yet a definitive test regarding
when Due Process demands some element of scienter
has remained elusive.
Mr. Huckabay’s felony conviction for the vaguely
defined strict liability offense of possessing a moose
carcass out of season or without proper tags presents a
factual scenario that will allow this Court to provide
additional contours to its scienter-Due Process

5
jurisprudence or, better yet, to articulate a clear test
for when a strict liability regulatory offense violates
Due Process.
Clarifying the level of scienter required for a felony
conviction under a public welfare regulatory statute is
vital because the government—at the State, federal,
and local levels—continues to rely on significant
criminal penalties to enforce regulatory schemes.
Indeed, the list of regulatory crimes continues to
expand, often criminalizing ordinary behavior and
ensnaring citizens who had no reason to believe they
were committing crimes. This overcriminalization has
long concerned commentators and courts, and it has
now seeped into the public consciousness. While a sort
of gallows humor has sprung up on the internet, where
Americans are amused by bizarre criminal laws, the
laughter betrays societal anxiety that regardless their
legal diligence, a Kafkaesque prosecution for an
innocent act that somehow violated a vague and
obscure statute may await even those with the best of
intentions.
Overcriminalization also imposes steep costs on
governments by wasting tax dollars to prosecute and
sometimes incarcerate non-violent offenders and
diminishes public respect for the justice system. Worse
yet, it destroys human capital.
Clarifying the due process limits of non-scienter
regulatory offenses will help restore public confidence
that citizens who run afoul of a regulatory scheme
while acting with no moral culpability will not be
branded as criminals and will encourage lawmakers to
be more circumspect when regulating what is otherwise

6
non-criminal behavior through the threat of criminal
penalties.
ARGUMENT
I.

The Petition for Certiorari Presents a
Question of Great Importance.

The principle that “an injury is criminal only if
inflicted knowingly is as universal and persistent in
mature systems of law as belief in freedom of the
human will and a consequent ability and duty of the
normal individual to choose between good and evil.”
Rehaif v. United States, 139 S.Ct. 2191, 2196, 204
L.Ed.2d 594 (2019) (internal citations omitted). Thus,
“scienter requirements advance this basic principle of
criminal law by helping to “separate those who
understand the wrongful nature of their act from those
who do not.” Id.
Yet beginning in the nineteenth century a tension
arose between the long-established notion that criminal
liability should be based only on moral culpability and
the needs of the modern state regulate an increasingly
complex world. This Court documented the rise and
reasons for criminal statutes with no scienter
requirement in Morissette, explaining:
The industrial revolution multiplied the number
of workmen exposed to injury from increasingly
powerful and complex mechanisms, driven by
freshly discovered sources of energy, requiring
higher precautions by employers. Traffic of
velocities, volumes and varieties unheard of
came to subject the wayfarer to intolerable
casualty risks if owners and drivers were not to

7
observe new cares and uniformities of conduct.
Congestion of cities and crowding of quarters
called for health and welfare regulations
undreamed of in simpler times. Wide
distribution of goods became an instrument of
wide distribution of harm when those who
dispersed food, drink, drugs, and even securities,
did not comply with reasonable standards of
quality, integrity, disclosure and care.
Morissette, 342 U.S. at 253–54. Lawmakers responded
to these technological and societal shifts with “detailed
regulations which heighten the duties of those in
control of particular industries, trades, properties or
activities that affect public health, safety or welfare.”
Id.
But unlike earlier criminal laws, many of the new
public welfare statutes did not ask a “normal individual
to choose between good and evil.” Morrisette, 342 U.S.
at 250. They simply demanded that individuals follow
the rules as written. Thus, the individual who relied
solely on his moral compass—no matter how finely
tuned—to navigate the regulatory sea would soon find
himself lost.
The Court overturned Morissette’s conviction for
theft of federal property by reading a scienter
requirement into the charging statute. Id. at 274; see
also Staples v. United States, 511 U.S. 600, 605 (1994).
Morissette acknowledged that “[t]he contention that an
injury can amount to a crime only when inflicted by
intention is no provincial or transient notion” and took
a middle path. Yet at the same time, the Morissette
court expressed a willingness to accept strict liability

8
for certain regulatory offenses because the offender is
“usually is in a position to prevent it with no more care
than society might reasonably expect and no more
exertion than it might reasonably exact from one who
assumed his responsibilities” and that “penalties
commonly are relatively small, and conviction does no
grave damage to an offender’s reputation.” Morissette,
342 U.S. at 256. But the Court’s conclusions about
regulatory offenses have not been borne out in the
intervening years, which have seen an explosion of
strict liability offenses, many of which carry significant
penalties.
See, The Ever-Growing Problem of
Overcriminalization, Section III, infra.
In the years following Morissette, this Court and the
circuit courts have balanced these factors on a case-bycase basis, but have never articulated a black-letter
rule regarding when the absence of scienter violates
due process. For example, in Lambert v. People of the
State of California, the Court held that a strict liability
city ordinance requiring felons to register within five
days of their arrival did not afford due process absent
some evidence that the defendant was aware of the
requirement. 355 U.S. 225, 226 (1957). The Court
explained that “[w]here a person did not know of the
duty to register and where there was no proof of the
probability of such knowledge, he may not be convicted
consistently with due process. Were it otherwise, the
evil would be as great as it is when the law is written
in print too fine to read or in a language foreign to the
community.” Id. at 229—230. The Lambert court
qualified its holding by noting that the statute in
question was not a simple prohibition, but required an
affirmative act by Mr. Lambert. Id. at 228-229.

9
Similarly, in Liparota v. United States, this Court
reversed a conviction for unauthorized use of food
stamps under a statute making it illegal to use food
stamps at a store that charged higher prices to food
stamp customers on the basis that the statute
criminalized “a broad range of apparently innocent
conduct” and swept in individuals who had no
knowledge of the facts that made their conduct
blameworthy.” 471 U.S. 419, 420 (1985), see also Elonis
v. United States, 575 U.S. __ (2015). Again, however,
the case turned in large part on the peculiarities of its
own facts and the notion that a defendant would be
unlikely to suspect that the transaction was illegal.
Yet this Court has never adopted a universally
applicable rule regarding scienter requirements. In its
own words, the Morissette court “attempt[ed] no closed
definition, for the law on the subject is neither settled
nor static” and no prior court had “undertaken to
delineate a precise line or set forth comprehensive
criteria for distinguishing between crimes that require
a mental element and crimes that do not.” Morissette,
342 U.S. at 260.
Even forty years later, the Staples court still
declined to provide a more definitive rule, holding that
the Court “need not adopt such a definitive rule of
construction to decide this case, however. Instead, we
note only that where, as here, dispensing with mens rea
would require the defendant to have knowledge only of
traditionally lawful conduct, a severe penalty is a
further factor tending to suggest that Congress did not
intend to eliminate a mens rea requirement.” Staples,
511 U.S. at 618-619. Indeed, commentators have noted

10
that “[d]espite the sweeping potential of Lambert’s
holding, which could be read to eviscerate the doctrine
that ignorance of the law is no excuse, the opinion has
been construed narrowly and invoked rarely.” Susan L.
Pilcher, Ignorance, Discretion & the Fairness of Notice:
Confronting “Apparent Innocence” in the Criminal Law,
33 AM. CRIM. L. REV. 1, 16 (1995).
There is also confusion among the circuit courts
regarding the interplay between scienter and due
process. For example, the Sixth Circuit held in a case
regarding taking of birds under the Migratory Bird
Treaty Act that the absence of a scienter requirement
violates due process unless “(1) the penalty is relatively
small and (2) where the conviction does not gravely
besmirch.” U.S. v. Wulff, 758 F.2d 1125 (6th Cir. 1985).
Conversely, the Third Circuit, in a case involving the
same statute explicitly rejected that approach. U.S. v.
Engler, 806 F.2d 425, 431 (3rd Cir. 1986). Both circuits
cited Morissette, yet drew different lessons from it. See
also, The Courts Take Flight: Scienter and The
Migratory Bird Treaty Act, 36 WASH. & LEE L. REV. 241
(1979).
The facts and issues presented in this case provide
the Court the opportunity further define and clarify
when due process requires reading a scienter
requirement into regulatory statutes with criminal
penalties.

11
II.

Idaho’s Regulatory Scheme for Big Game
Hunting—and similar regulatory regimes—
threatens to ensnare innocent actors

Regulatory statutes with no scienter requirement
and criminal penalties pose the obvious danger that a
person engaging in routine activity that he or she does
not know is regulated may inadvertently become a
criminal. Mr. Huckabay’s experience with Idaho’s
hunting regime provides a frightening example of how
a complex regulatory scheme can ensnare a person who
makes every attempt to act lawfully for conduct most
people would be surprised to learn is illegal.
To hunt for moose in Idaho, you must have a
hunting license. This restriction is reasonable and easy
to understand. In addition, to hunt for moose, you
apply for a controlled hunt tag. See Idaho Dept. Of Fish
and Game, Idaho Season and Rules, available at
“https://idfg.idaho.gov/sites/default/files/seasons-rulesmoose-bighorn-sheep-mtn-goat-2021-2022.pdf?
updated=04-02-2021. Controlled hunt tags are awarded
by lottery and are valid only for certain types of moose
in certain areas, during certain times of the year. Id. at
6, 37.
Moose season in Idaho generally runs from August
30 through November 23rd. Except in “controlled hunt
area” 1-1, where it runs from September 15th through
December 1st, or in controlled hunt area 1-3 where the
season runs from Oct. 1 through October 14th. And
these rules, of course, do not apply to “Antlerless Moose
Controlled Hunts” in area 54-1, where the season runs
from October 15th through November 23rd. Id. at 8.
th

12
If one is unclear regarding the borders of area 54-1,
the State of Idaho explains that:
Hunt Area 54-1 is “That portion of Unit 54 north
and east of the following boundary: beginning at
the intersection of 3800 E (Rock Creek Road)
and Highway 30 in Hansen, south along 3800 E
(Rock Creek Road) to FS Road 515, then south
east to FS Road 538 (Monument Peak Road),
then southeast to FS Road 533 (Trapper Creek
Road), then easterly to 2100 South, then east to
Unit 54 boundary near the town of Oakley.”
Id. at 15.
The State warns, however, that “[s]easons and rules
may change after a booklet is printed” and hunters are
advised to look for “significant changes or corrections
to this printed proclamation online at
idfg.idaho.gov/rules. See https://idfg.idaho.gov/sites/
default/files/seasons-rules-moose-bighorn-sheep-mtngoat-2021-2022.pdf?updated=04-02-2021. The booklet
further advises prospective hunters that “hunt areas
are different for each species” and to “refer to the
current Big Game Seasons and Rules Books” or
download a PDF of the State’s current administrative
rules to obtain a “full text of legal description and
boundaries for Game Management Units. The State’s
“Big Game 2021 Seasons & Rules” book aspires to the
majestic stature of its subject matter, weighing in at
124 pages. Id. The PDF file of the state rules, by
comparison, is comparatively quick read, at only 22
pages. See Idaho Dept. Fish and Game, 13.01.08 Rules
Governing Taking of Big Game Animals,
adminrules.idaho.gov/rules/current/13/130108.pdf. Not

13
unlike the famous hunter confronted with frequently
changing and conflicting information regarding
whether it is rabbit season or duck season, an Idaho
hunter might find himself unsure of whether his
conduct is lawful. See RABBIT FIRE, (Warner
Bros.1951).
Nor is Idaho’s “Big Game Seasons and Rules” book
a model of clarity, especially for the layman. For
example, in regard to elk hunting, the second page of
the Big Game book prominently warns resident elk
hunters that “[i]f you apply for a controlled elk hunt in
2021, you cannot buy a capped elk zone tag until five
(5) days after they go on sale regardless of whether
you draw a controlled hunt elk tag.” Big Game
2021 Seasons & Rules at 2 (emphasis in original). Of
course, “Super Hunts,” “Extra antlerless hunts,” and
“Depredation hunts” are exempt from the waiting
period. Id.
All this is to say that the complexity of Idaho’s
regulatory scheme governing big game hunting rivals
any byzantine regulation from the deepest recesses of
the Federal Register. Bringing down an elk is no small
task. See David E. Petzal, The 7 Hardest Animals to
Hunt, F IELD AND S TREAM, Apr. 30, 2021,
https://www.fieldandstream.com/story/hunting/biggame-animals-you-need-to-drop-quickly/. But
complying with the applicable regulations to do so is no
walk in the woods either. And the penalties for failure
can be more significant.
Certainly, just as responsible big game hunters
would properly outfit themselves for the hunt, they
would familiarize themselves with the applicable rules

14
and if in doubt contact the authorities. Indeed, holding
a person who voluntarily joins the regulated
community strictly liable for violations of those
particular regulations has greater justification, as the
individual presumably is on notice of the regulatory
scheme and the heightened duties contained therein.
See Morissette at 256 (“[T]he accused, if he does not
will the violation, usually is in a position to prevent it
with no more care than society might reasonably expect
and no more exertion than it might reasonably exact
from one who assumed his responsibilities.”). See also,
Pilcher, supra at 19 (“the burdens of risk-avoidance
could most easily be borne by the risk-creators.”).
But in this case, Mr. Huckabay did not voluntarily join
the regulated community of Idaho moose hunters.
There was no allegation that Mr. Huckabay was
hunting moose or had killed a moose. Rather, he was
simply helping a friend, Mr. Cushman, who he believed
was properly credentialed, move a moose that he
believed had been legally taken in season. And to the
extent that Mr. Huckabay was aware of moose hunting
regulations through past experience, Mr. Cushman had
assured him that the taking was in compliance with
regulations. Indeed, it is unclear from the record how
Mr. Huckabay was charged with “possessing” a moose
carcass, as the evidence in the record shows that he
was merely a passenger in Mr. Cushman’s truck. Pet.
App. 38a-39a. Yet Mr. Huckabay is held to account for
compliance with the State’s complex and ambiguous
moose hunting rules. Indeed, he is held to account for
Mr. Cushman’s apparent violation of those rules.

15
Reading the Idaho statute and the many similar
non-scienter regulatory statutes across the country like
it to turn citizens engaging in otherwise lawful
behavior into felons based on their unknowing
proximity to a regulatory violation is plainly
inconsistent with the principles that this Court
articulated in Morissette.
Unfortunately, the
fundamental unfairness that Mr. Huckabay
experienced is not limited to persons moving moose
carcasses. As set forth below, Mr. Huckabay’s
experience is of a piece with the expanding use of
criminal penalties, often expressed in vague statutes,
to achieve regulatory aims.
III.

The
E ve r - G r o w i n g
Overcriminalization

Problem

of

Over the last half century, scholars have voiced
alarm over the expansion of criminal law into people’s
lives. See Sanford Kadish, Some Observations on the
Use of Criminal Sanctions in Enforcing Economic
Regulations, 30 U. CHI. L. REV. 3 (1963); Kadish, The
Crisis of Overcriminalization, 374 ANNALS AM. ACAD.
POL. & SOC. SCI. 1 (1967) (“Excessive reliance upon the
criminal law to perform tasks for which it is ill-suited
has created acute problems for the administration of
criminal justice.”). Because “overcriminalization” can
have several meanings, the term as it is used here
“refers to the overuse and misuse of the criminal law to
punish conduct traditionally deemed morally
blameless.” Paul J. Larkin, Regulation, Prohibition,
and Overcriminalization: The Proper and Improper
Uses of the Criminal Law, 42 HOF. L. REV. 745 (2014).
As Mr. Larkin describes, “the use of the criminal law to

16
enforce a regulatory regime” is a “prime example of the
phenomenon.” Id.
Scholars have attributed the rise in
overcriminalization to the phenomenon evident in Mr.
Huckabay’s case—“the profligate extension of the
criminal sanction to cover all rules lawfully
promulgated by an administrative agency.” John C.
Coffee, Jr., Paradigms Lost: The Blurring of the
Criminal & Civ. Law Models-& What Can Be Done
About It, 101 YALE L.J. 1875, 1880–81 (1992). While the
government’s regulatory aims are no doubt important,
the coercive manner in which they are achieved exacts
a cost that is difficult to quantify: it makes criminals
out of otherwise innocent citizens. One commentator
has observed that as “this process of
reflexive criminalization continues, its little-noticed
consequence is to expose a significant portion of the
population of the United States to potential
entanglement with the criminal law during the
ordinary course of their professional and personal
lives.” Pilcher, supra at 33. Left unchecked, the
increasing criminalization of regulatory offenses ends
up in dystopia, “creating an environment in which all
are safe but none is free.” Id. (quoting Herbert L.
Packer, The Limits of the Criminal Sanction, 65
(1968)).
The scope of potentially criminal conduct at the
federal level alone is vast. A study by The Heritage
Foundation reported that in 2007 the U.S. Code (listing
all statutes enacted by Congress) contained more than
4,450 criminal offenses, up from 3,000 in 1980. John
Baker, Revisiting the Explosive Growth of Federal

17
Crimes, The Heritage Foundation, Jun. 16, 2008. Other
researchers have met with less success in attempting
to count the nation’s criminal statutes. Beginning in
1982, the U.S. Justice Department worked to provide
a definite number of federal crimes. But after working
for two years, they could muster only an educated
guess of 3,000 statutory federal offenses. Many Failed
Efforts to Count Nation’s Federal Criminal Laws, Gary
Fields & John R. Emshwiller, THE WALL STREET
JOURNAL (July 23, 2011).
The American Bar
Association fared little better in its 1998 attempt,
concluding that any attempt to reach an exact count of
federal offenses was likely “to prove futile and
inaccurate.” Id. And these efforts did not even attempt
to count federal administrative rules that might trigger
criminal penalties. In 1991, Professor Coffee estimated
that there were as many as 300,000 federal criminal
regulations. John C. Coffee, Jr., Does “Unlawful” Mean
“Criminal”?: Reflections on the Disappearing
Tort/Crime Distinction in American Law, 71 B.U. L.
Rev. 193, 216 (1991).
Worse still, many of these federal offenses are either
strict liability or contain poorly drafted mens rea
requirements. A 2010 study of laws proposed in the
109th Congress found that over 57 percent of the nonviolent, non-drug offenses introduced, and 64 percent
of offenses enacted into law, contained inadequate
mens rea requirements, putting even the innocent at
risk of punishment. Brian W. Walsh & Tiffany M.
Joslyn, Without Intent: How Congress Is Eroding the
Criminal Intent Requirement in Federal Law, The
Heritage Foundation & The National Association of
Criminal Defense Lawyers (2010).

18
State statutes imposing unexpected criminal
liability are also legion and sometimes bizarre. For
example, Delaware punishes by up to six months
imprisonment the sale of perfume or lotion as a
beverage; in Alabama, it is a felony to maim one’s self
to “excite sympathy” and Nevada criminalizes the
disturbance of a congregation at worship by “engaging
in any boisterous or noisy amusement.” Erik Luna,
The Overcriminalization Phenomenon, 54 AM. U. L.
REV. 703, 704 (2005).
The notion that American life is overcriminalized is
no longer merely a topic of academic discussion. It has
taken root in popular culture. The humorous twitter
account “A Crime a Day,” which catalogs the many
non-obvious ways in which one might inadvertently run
afoul of state or federal law, has nearly two hundred
thousand followers: A Crime a Day (@CrimeADay),
https://twitter.com/CrimeADay. Recent posts note that
selling liquor-flavored sherbet that contains more
liquor than necessary to flavor the sherbet, riding a
motorbike without a horn at the National Institutes of
Health, and shooting fish from an airplane are all
criminal activities. See 21 U.S.C. §333 & 21 CFR
§135.40(e)(4); 40 U.S.C. § 1315 & 45 CFR §3.27, and 16
U.S.C. § 742j-1(a)(1), respectively.
Also, the television game show “Jeopardy!” recently
featured a category titled “It’s a Federal Crime.”
Jeopardy!, Show #8461, August 9, 2021, Sony Pictures
Television. Clues included “Pretending to be a member
of this alphanumeric ‘learning by doing’ organization is
a federal offense” and “For writing a check for less than
this amount of money, you can be fined or imprisoned

19
not more than six months, or both.” (The correct
responses were “What is 4H?” and “What is one
dollar?”) 18 U.S.C. § 916; 18 U.S.C. § 336.
While examples of overcriminalization may elicit
chuckles, that humor masks a societal anxiety.
Further, overcriminalization subtly undermines the
justice system. As Mr. Larkin observes, “having too
many criminal laws damages the respectability of the
process that enforces them.” Paul J. Larkin, Jr., Public
Choice Theory and Overcriminalization, 36 HARV. J. L.
& PUB. POL’Y 715, 720 (2013).
But for defendants caught up by these bizarre
c r i m e s , t h e r e i s n o t h i n g funny a b o u t
overcriminalization.
It upends lives and makes
criminals out of honest citizens. For example, Mariza
Ruelas, a single mother of six in Stockton, California,
was charged with operating a food facility without a
permit because she offered to sell homemade cerviche
through a Facebook recipe group. James R. Copeland,
The Orange County Register, Sept. 27, 2016,
https://www.ocregister.com/2016/11/27/homemade-ce
viche-case-exemplifies-need-to-address-overcriminal
ization/.
Although the offense with which she was charged
was a misdemeanor and not a felony, it still carried
with it a potential sentence of up to six months in jail.
See Ann. Cal. Health& Safety Code §113758; Ann. Cal.
Health& Safety Code §114395. The charges against
Ms. Ruelas were eventually dropped in exchange for
her agreement to perform 80 hours of community
service and her agreement not to sell or trade food
online without the proper permits. https://arstechni

20
ca.com/tech-policy/2017/01/woman-prosecuted-forceviche-sales-on-facebook-settles-with-da/.
Notably, the California Homemade Food Act under
which Ms. Ruelas was prosecuted—like the Idaho
poaching statute—imposes strict liability for any
person engaging in “the manufacture, packing, or
holding of any processed food in this state” without a
valid registration from the State. Ann. Cal. Health &
Safety Code §110460. And like Mr. Huckabay, the
California act is broad and ambiguous enough to sweep
up conduct that carries no element of moral turpitude.
Similarly, in 2016, authorities in Oklahoma
prosecuted bartender Colin Grizzle for serving vodkas
infused with flavors like bacon and pickles. Bill
Schammert, Bacon Booze: Local bar, bartender in
trouble for infusing vodka, Fox 25 (June 24, 2016);
https://okcfox.com/news/local/bacon-booze-local-barbartender-in-trouble-for-infusing-vodka. While the
drinks were popular with customers, Oklahoma
regulators had no love for the concoctions, which they
claimed violated an Oklahoma statute that prohibited
the re-filling of containers which contained alcohol. See
Okla. Stat. tit. 37, § 584. Unlike Ms. Ruelas, Mr.
Grizzle was arrested and temporarily spent three days
behind bars for the violation. Schammert, supra.
Overcriminalization’s obvious problem—as Mr.
Huckabay, Ms. Ruelas, and Mr. Grizzle can attest—is
that “[i]t becomes a formidable task for the average
person to know what the law forbids, because the moral
code offers no lodestar.” Paul J. Larkin, Jr., Public
Choice Theory and Overcriminalization, 36 HARV. J.
LAW PUBL. P. 716, 720 (2013). In each case, the

21
accused’s conduct was morally unobjectionable and
routine—a friend helping a fellow hunter, a cook
serving a favorite dish, a bartender mixing drinks. But
the lack of a scienter requirement, coupled with vague
and obscure laws turned these ordinary activities into
crimes.
Author and civil rights lawyer Harvey Silverglate
estimates that due to the number of criminal statutes
and vague rules tied to them, the average American
commits three felonies a day. L. Gordon Crovitz, You
Commit Three Felonies a Day, THE WALL STREET
JOURNAL (Sept. 27, 2009). In a similar vein, one former
law professor mused that “[t]here is no one in the
United States over the age of 18 who cannot be indicted
for some federal crime” Fields & Emshwiller, supra.
The State’s ability to prosecute virtually anyone for
virtually anything “empower[s] prosecutors, who are
the criminal justice system’s real lawmakers.” William
Stuntz, The Pathological Politics of Criminal Law, 100
MICH. L. REV.3, 506-507 (2001). Indeed, “[a]nyone who
reads criminal codes in search of a picture of what
conduct leads to a prison term, or who reads sentencing
rules in order to discover how severely different sorts
of crimes are punished, will be seriously misled.” Id.
This uncertainty naturally breeds anxiety over
engaging in what on their face would appear to be
lawful activities. The additional social costs include
“the fear and anxiety imposed on riskaverse individuals forced to live under the constant
threat of draconian penalties.” Coffee, supra at 1881.
“These citizens,” Professor Coffee notes, “bear not only
the risks of false accusation and erroneous conviction,

22
but also the constant fear that they might commit an
unintentional violation.” Id. While this anxiety is
difficult to measure it is palpable.
While
the
primary
responsibility
for
overcriminalization lies with Congress and state
legislatures, granting the petition will allow the Court
to annunciate a clear rule governing non-scienter
offenses and provide lawmakers with visible guideposts
for drafting future statutes.
CONCLUSION
For all the reasons states in the Petition for Writ of
Certiorari and this amicus brief, this Court should
grant the Writ.
Respectfully submitted,
JAY R. CARSON
Counsel of Record
ROBERT ALT
THE BUCKEYE INSTITUTE
88 East Broad Street, Ste. 1300
Columbus, Ohio 43215
(614) 224-4422
j.carson@buckeyeinstitute.org
robert@buckeyeinstitute.org

